www.balch.com

BALCH

& BINGHAM utp

ED R. HADEN

t: (205) 226-8795

£ (205) 488-5648

e: ehaden@balch.com

January 8, 2021
VIA FEDEX

Mr. Scott S. Harris, Clerk

Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: Case No.: 20-877
Trinell King v. Ricky Pridmore, et al.

Dear Mr. Harris:

I represent Respondents Ricky Pridmore, Corey Archer, and Andrew Hill in the
above-styled matter.

Currently, my clients’ response to the Petition for Writ of Certiorari is due February
1, 2021. I respectfully request a thirty (30) day extension of time pursuant to Supreme
Court Rule 30.4, which would make the new deadline March 8, 2021. The reasons for the
request are the following:

As appellate counsel, I have to coordinate with trial counsel for the individual
respondents as well as the insurer that is paying for their representation.

I am working on two responses to applications for rehearing due on January 14,
2021 in the Alabama Supreme Court. My preparation with regard to those matters has
limited, and will limit, the time I can devote to preparing the brief in opposition in King v.
Pridmore, et al. to some extent.

The extension of time would allow me the ability to devote the time necessary to
complete the brief in opposition to the Petition.

I have contacted counsel of record for Petitioner King, and he does not oppose this
extension request.
Mr. Scott S. Harris
January 8, 2021
Page 2

Accordingly, I request a thirty (30) day extension of time in which to file the brief in
opposition to the Petition for Writ of Certiorari. With a thirty (30) day extension, the

response deadline would be March 3, 2021.

Respectfully,

6 a

Timothy P. Donahue, Sr.

DONAHUE & ASSOCIATES, LLC

1020 22nd Street South

Birmingham, Alabama 35205
Telephone: (205) 871-8858

Email: tdonahue@donaue-associates.com
Counsel for Respondent Andrew Hill

ce:
Rhonda Chambers
Richard Riley
William R. Andrews
MARSH, RICKARD & BRYAN, P.C.
800 Shades Creek Parkway,
Suite 600-D
Birmingham, AL 35209
Telephone: (205) 879-1981
Email: rchambers@mrblaw.com
Email: rriley@mrblaw.com

Ed R. Haden

Counsel of Record
BALCH & BINGHAM LLP
1901 6th Avenue North, Suite 1500
Birmingham, Alabama 35203
Telephone: (205) 226-8795
Email: ehaden@balch.com
Counsel for Respondents Andrew Hill,
Ricky Pridmore, and Corey Archer

Terry A. Sides

HALE SIDES LLC

600 Financial Center

505 20th Street North

Birmingham, Alabama 35203
Telephone: (205) 453-9800

Email: tsides@halesides.com

Counsel for Respondents Ricky Pridmore
and Corey Archer

Alan Lasseter

LASSETER LAW FIRM, P.C.

2204 Lakeshore Drive,

Suite 303

Birmingham, AL 35209

Telephone: (205)458-1213

Email: alan@shuttlesworthlasseter.com
